<html>
<title> - NOMINATIONS OF ALEJANDRO M. SANCHEZ, ANDREW M. SAUL, AND GORDON J. WHITING</title>
<body><pre>[Senate Hearing 107-833]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-833
 
  NOMINATIONS OF ALEJANDRO M. SANCHEZ, ANDREW M. SAUL, AND GORDON J. 
                                WHITING

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

  NOMINATIONS OF ALEJANDRO M. SANCHEZ, ANDREW M. SAUL, AND GORDON J. 
WHITING TO BE MEMBERS OF THE FEDERAL RETIREMENT THRIFT INVESTMENT BOARD

                               __________

                           NOVEMBER 15, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs









                           U.S. GOVERNMENT PRINTING OFFICE
83-484                              WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
                Jennifer E. Hamilton, Research Assistant
                Nanci E. Langley, Deputy Staff Director,
   Subcommitte on International Security, Proliferation and Federal 
                                Services
              Richard A. Hertling, Minority Staff Director
               Johanna L. Hardy, Minority Senior Counsel
           Ann C. Fisher, Minority Professional Staff Member,
   Subcommitte on International Security, Proliferation and Federal 
                                Services
                     Darla D. Cassell, Chief Clerk







                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Bunning..............................................    11

                               WITNESSES
                       Friday, November 15, 2002

Alejandro M. Sanchez, to be a Member of the Federal Retirement 
  Thrift Investment Board........................................     2
Andrew M. Saul, to be a Member of the Federal Retirement Thrift 
  Investment Board...............................................     2
Gordon J. Whiting, to be a Member of the Federal Retirement 
  Thrift Investment Board........................................     2
Hon. Bob Graham, a U.S. Senator from the State of Florida........     5

                     Alphabetical List of Witnesses

Graham, Hon. Bob:
    Testimony....................................................     5
    Prepared statement...........................................    11
Sanchez, Alejandro M.
    Testimony....................................................     2
    Biographical and professional information....................    12
    Responses to pre-hearing questions...........................    16
Saul, Andrew M.:
    Testimony....................................................     2
    Biographical and professional information....................    21
    Responses to pre-hearing questions...........................    31
Whiting, Gordon J.:
    Testimony....................................................     2
    Biographical and professional information....................    37
    Responses to pre-hearing questions...........................    52


  NOMINATIONS OF ALEJANDRO M. SANCHEZ, ANDREW M. SAUL, AND GORDON J. 
                                WHITING

                              ----------                              


                       FRIDAY, NOVEMBER 15, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel Akaka, 
presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Committee will please come to order. I 
want to thank everyone for being here today.
    This morning we are considering the nominations of 
Alejandro Sanchez, Andrew Saul, and Gordon Whiting to be 
members of the Federal Retirement Thrift Investment Board. 
Committee rules require that an inquiry be conducted as to the 
experience, qualifications, suitability, and integrity of a 
nominee to serve in the position to which he or she has been 
named.
    We have received all of the required information on our 
three nominees. Our nominees have provided written responses to 
pre-hearing questions submitted by the Committee concerning 
issues relevant to their positions on the Federal Retirement 
Thrift Investment Board.
    In addition, our Committee staff have reviewed all of the 
information including the financial disclosure reports 
submitted by the Office of Government Ethics. Copies of the 
nominees' biographical information and pre-hearing responses 
will be included in this record as part of this hearing, and 
will be available upon request.
    Our witnesses' financial statements are available for 
inspection by the public in the Committee office, and I have 
personally reviewed their FBI background investigation reports.
    The Committee rules require that all nominees be under oath 
while testifying on matters relating to their suitability for 
office, including the policies and programs the nominee will 
pursue if confirmed. So, gentlemen, will you please stand and 
raise your right hand?
    Do you solemnly swear to tell the truth, the whole truth 
and nothing but the truth, so help you, God?
    Mr. Sanchez. I do.
    Mr. Saul. I do.
    Mr. Whiting. I do.
    Senator Akaka. Thank you. You may be seated.
    Mr. Sanchez, Mr. Saul and Mr. Whiting, I would like to 
thank you for being here today and to congratulate you on your 
nominations. I would like to ask at this time that you 
introduce your families to the Committee, and let me call you 
in this order: Mr. Sanchez, Mr. Saul and Mr. Whiting. Mr. 
Sanchez.

  TESTIMONY OF ALEJANDRO M. SANCHEZ,\1\ TO BE A MEMBER OF THE 
           FEDERAL RETIREMENT THRIFT INVESTMENT BOARD

    Mr. Sanchez. Thank you, Mr. Chairman. Good morning to you, 
sir, and to the staff members of the Committee.
---------------------------------------------------------------------------
    \1\ Biographical and professional information appears in the 
Appendix on page 12.
     Responses to pre-hearing questions appears in the Appendix on page 
16.
---------------------------------------------------------------------------
    It is an honor for me and my family to be here this 
morning, to be considered for this appointment, sir. And my 
wife, Mercedes, and our two daughters, Cristina and Carolina 
are here with me. They flew up last night, sir, from Florida.
    And if confirmed I will serve with great interest to this 
appointment, sir, and it's a tremendous honor to serve my 
country if given this opportunity, as I did when I served in 
the U.S. Air Force before, sir.
    As an immigrant to this great country, I can tell you that 
being considered for this appointment goes beyond any words, 
Mr. Chairman, that I can state to you this morning.
    I wish my father could be here today, sir. I know he's 
looking from above. My mom was ill and she could not come up 
from Florida this morning to be with my family. Once again, Mr. 
Chairman, thank you for this opportunity, and if confirmed I 
will serve with great honor. Thank you, sir.
    Senator Akaka. Thank you. I am glad you are here and I am 
glad to have met your family, and I wish you well.
    Mr. Sanchez. Thank you.
    Senator Akaka. Mr. Saul.

 TESTIMONY OF ANDREW M. SAUL,\2\ TO BE A MEMBER OF THE FEDERAL 
               RETIREMENT THRIFT INVESTMENT BOARD

    Mr. Saul. Senator, likewise, this is of course a great 
honor, and if confirmed I would do everything I can to make 
this a successful agency and help with whatever I can to better 
the policies of the United States. It truly is a great honor, 
and thank you very much for inviting us and holding this 
hearing.
---------------------------------------------------------------------------
    \2\ Biographical and professional information appears in the 
Appendix on page 21.
     Responses to pre-hearing questions appears in the Appendix on page 
31.
---------------------------------------------------------------------------
    I came last night with my wife, Denise Saul, who's sitting 
right behind me, and I'm just very honored to be here. It's a 
true, true honor. Thank you, sir.
    Senator Akaka. Thank you for being here, and I welcome you 
and your wife here.
    Mr. Whiting.

   TESTIMONY OF GORDON J. WHITING,\3\ TO BE A MEMBER OF THE 
           FEDERAL RETIREMENT THRIFT INVESTMENT BOARD

    Mr. Whiting. Mr. Chairman, thank you.
---------------------------------------------------------------------------
    \3\ Biographical and professional information appears in the 
Appendix on page 37.
     Responses to pre-hearing questions appears in the Appendix on page 
52.
---------------------------------------------------------------------------
    I came with my mother, Doris Simmons and my brother, Brian 
C. Whiting, and am greatly honored to be here today.
    And if confirmed, I look forward to working very hard in 
the Federal Retirement Thrift Investment Board. Thank you very 
much.
    Senator Akaka. Thank you very much, and it is great again 
to meet your family, and to have them join you in these 
hearings.
    May I ask you for your statements, if you have any to make 
at this time? Mr. Sanchez.
    Mr. Sanchez. Mr. Chairman, I didn't get a chance to prepare 
any written statements, other than what I just gave you as my 
opening remarks.
    Senator Akaka. That is fine.
    Mr. Sanchez. Thank you, sir.
    Mr. Saul. I think that the hearing that we had with your 
staff really was pretty complete, and that plus the questions 
that were submitted by your Committee that I have answered 
beforehand, I think sets out the policies that I would intend 
to implement if I am confirmed to this position.
    Senator Akaka. Thank you. Mr. Whiting.
    Mr. Whiting. Thank you, Mr. Chairman. As I said, it's a 
great honor to be here today, and I wanted to thank you and all 
the other Members of the Committee, and also the staff members 
for all the hard work that they have done to get us here today, 
so thank you.
    Senator Akaka. At this point in time I want to join you in 
thanking the staff for their work. They have certainly worked 
hard to prepare this hearing and to help me call this hearing.
    So thank you very much for bringing your families and for 
your statements. I have three questions that we ask all 
nominees, and I ask you to respond to them together as I ask 
them.
    Is there anything you are aware of in your background that 
might present a conflict of interest for the duties of the 
office to which you have been nominated? Your response?
    Mr. Sanchez. No, Mr. Chairman.
    Mr. Saul. Mr. Chairman, as stated in my questionnaire, 
there is a possible conflict regarding the Barclay's Bank, 
which has been disclosed, and I have assured and signed a 
waiver that I would apply for a waiver if a decision has to 
be--comes before the Committee regarding the Barclay's Bank 
involvement.
    Senator Akaka. Mr. Whiting.
    Mr. Whiting. No, Mr. Chairman, there is no conflict.
    Senator Akaka. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Sanchez. No, Mr. Chairman.
    Mr. Saul. No, Mr. Chairman.
    Mr. Whiting. No, Mr. Chairman.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted Committee of Congress if you are confirmed?
    Mr. Sanchez. Yes, sir, I would do so, Mr. Chairman.
    Mr. Saul. Yes, sir, Mr. Chairman.
    Mr. Whiting. Yes, sir, Mr. Chairman.
    Senator Akaka. Thank you. I now have a few questions of my 
own, the first being directed to all of you. You are aware of 
the termination of the contract to modernize the Thrift Savings 
Plan computer system and the resulting lawsuit. Having said 
that, let us put aside for the moment the fact that the new 
system continues to have problems and still is not ready. I 
know I speak for many Members of Congress in expressing concern 
about the very public disagreement that the TSP has with the 
Justice and Labor Departments. There have been press releases 
making charges of political motivations and a series of very 
combative letters. The question is: Have you given any thought 
to this situation, and if so, have you come to any conclusions 
about how to address such disagreements in the future?
    I will call on you, Mr. Sanchez, first, Mr. Saul, then Mr. 
Whiting. And following your answers, I will call on my friend, 
Senator Graham, for any comments and statement that he has. Mr. 
Sanchez.
    Mr. Sanchez. Thank you, Mr. Chairman.
    Mr. Chairman, through my efforts of my interviews for the 
staff and the questionnaires I've received, I've discovered the 
situation that you've related to. And based on the knowledge 
that I have now, Mr. Chairman, if confirmed to this position, I 
would make this one of my top priorities as a board member, to 
try to resolve this issue and try to avoid issues like this in 
the future. I think that seeking a third party outside vendor 
to do work for the board, as for any other entity, that third 
party has the expertise is a good thing. However, the drawing 
up of the contract, the administration of that contract has to 
be very carefully done to ensure that it is done on a timely 
and cost effective basis. I think that we have a fiduciary 
obligation to the beneficiaries of this fund, who are the 
workers, to both protect and enhance the fund in every 
meaningful way. And one of those is to make sure that they have 
access, sir, to their investments.
    So I think that, if confirmed I will work very diligently 
to make sure that these type of things are avoided in the 
future, and try to resolve this current conflict now. And I 
think a cooperative nature in a cooperative way is the answer 
in working with the Department of Justice, whether they sue on 
behalf of the board or if outside counsel is hired. But I think 
there is a way to do that and do it to the benefit of the 
beneficiaries.
    Senator Akaka. Thank you.
    Mr. Sanchez. Thank you, sir.
    Senator Akaka. Mr. Saul.
    Mr. Saul. Senator, I am very much aware of this problem 
that you speak of, again through your staff, and other 
questions that have been sent to me. I know this is a very big 
problem, an embarrassing problem for everybody concerned. And I 
think that I could assure you if I'm confirmed to this position 
that I would spend whatever time is necessary to get to the 
bottom of this problem.
    At this time, obviously, I don't know enough about what 
occurred and where it's going and what the problems really are, 
but I assure you that this would be one of the priorities of 
this Committee, and we will do whatever is necessary, whether 
it be through outside consultants or in house, to come to a 
fair and equitable resolution of this problem, but I am very 
aware of it, and I take it very seriously, and I understand 
it's one of the priorities that has to be resolved.
    Senator Akaka. Thank you. Mr. Whiting.
    Mr. Whiting. Thank you, Mr. Chairman.
    Yes, I am aware of the issue, and I feel it is one that 
needs to be resolved as soon as possible because I am very 
aware of the confusion that can occur when different government 
agencies don't speak with one voice, and I think it's very 
important that it be resolved, and extremely important for the 
participants. This is not something that I think that they like 
hearing about, and I think that--I know I will certainly work 
very diligently, if confirmed, to make sure it's resolved 
expeditiously.
    Senator Akaka. Thank you.
    Senator Graham, it is great to have you here with us this 
morning. I will ask you for any statement you would like to 
make at this time.

TESTIMONY OF HON. BOB GRAHAM,\1\ A U.S. SENATOR FROM THE STATE 
                           OF FLORIDA

    Senator Graham. Thank you very much, Senator Akaka. I 
appreciate the opportunity to say a few words on behalf of my 
good friend, Alex Sanchez. I have a longer statement, which I 
would ask be printed in full in the record.
---------------------------------------------------------------------------
    \1\The prepared statement of Senator Graham appears in the Appendix 
on page 11.
---------------------------------------------------------------------------
    Senator Akaka. It will be printed in the record, thank you.
    Senator Graham. Thank you very much, Senator.
    The last responses to the very thoughtful question you 
asked I think underscores the kind of characteristics, 
background, and aptitudes that Mr. Sanchez will bring to the 
Federal Retirement Thrift Investment Board. Alex, as I 
indicated, is not only a fellow Floridian, but also a long-time 
personal friend, and is the Chief Executive Officer of the 
Florida Bankers Association.
    In that position he has been the banking community's 
advocate, involved in a variety of legislative and regulatory 
issues at the State and Federal level. In fulfilling that 
responsibility, he has demonstrated his extraordinary abilities 
to create personal relationship with his colleagues and 
decisionmakers, as well as to be a constructive force in 
shaping issues for resolution in the broad public interest. I 
am certain that he will bring those same qualities to this new 
position.
    Alex has a background in law. He received his JD from the 
University of Iowa in 1983. He then began working with a Miami-
based law firm, Sinclair Lewis, before becoming General Counsel 
for the Florida Department of Commerce, and later Senior 
Corporate Attorney for GTE Information Services. So he has had 
experience in both government and the private sector.
    Before receiving his law degree he was in the U.S. Air 
Force for 5 years, receiving his honorable discharge in 1981.
    I believe that these experiences within the business, 
financial, and governmental sector, as well as his wide range 
of civic activities which are discussed in my full statement, 
have fully prepared him to assume this responsibility.
    He is joined today by his family. He has been married for 
20 years to Mercedes Hervas, and they have two beautiful 
children, Cristina and Carolina. Will they please stand?
    So, Mr. Chairman, I commend Mr. Sanchez for this position 
and urge his earliest consideration by this Committee. I also 
wish well to the other two nominees who are here today.
    Mr. Saul. Thank you.
    Mr. Whiting. Thank you.
    Mr. Sanchez. Thank you, Senator.
    Senator Akaka. Thank you very much, Senator, for your 
presence and for your support. It will certainly make a 
difference to this Committee. Thank you.
    Mr. Sanchez. Mr. Chairman, do you mind if my family and I 
just take a quick photograph with Senator Graham for our 
historical family record just on the side?
    Senator Akaka. We will have a moment of recess.
    Mr. Sanchez. Thank you, sir. Thank you very much.
    [Recess.]
    Senator Akaka. The Committee will come to order.
    My next question is to Mr. Saul, who if confirmed will 
chair the Federal Retirement Thrift Investment Board. You and 
other members of the Board have a fiduciary responsibility to 
the TSP investors. After visiting the TSP and Board websites, 
it struck me that there was a lack of information about the 
governance structure of the TSP and the Board. What steps will 
you take to ensure the transparency of operations and 
accountability of the Board members and the executive director 
as fiduciary agents of the TSP?
    Mr. Saul. Well, Senator, if I'm confirmed, one of the 
things that's come to light is that there is concern from some 
of the staff about this particular matter that you talk about. 
As far as I'm concerned, I think education is the most 
important thing because a lot of the people that invest their 
hard-earned money in the Thrift Savings Plan are not 
sophisticated investors, have not had a lot of investing 
experience, and I think the fact that we must be sure that they 
understand the choices in the investment that they're making 
with their retirement funds. I take this very, very seriously. 
And I think one of the things, as far as accessibility of the 
fund to the potential investors, it's most important that the 
website and all other advertising materials and educational 
materials from the fund are properly documented and done. This 
is something that I would again put as a priority that we look 
at.
    I think that the Thrift Savings Plan is one of the most 
important tools for the government in recruiting and--not only 
in recruiting, but retaining our best people in both the 
military and in the civilian workforce, and I think it's 
crucial that the education process is very clear and the best 
that it can be.
    So I assure you if I am confirmed as chairman, as a member 
of this board, this again would be one of the priorities that 
we would look at, sir.
    Senator Akaka. Well, thank you very much for your response. 
As you have noted, educating investors is essential, and I am 
certainly glad to hear you share that view.
    Mr. Whiting, TSP contributors risk their retirements on the 
future success of their investments. I know many participants 
look forward to the time when they have daily access to their 
accounts. In anticipation of that event, what should the Board 
and executive director do to ensure that participants have the 
financial knowledge to make informed investment decisions and 
how can these efforts be improved?
    Mr. Whiting. Mr. Chairman, I think it is very important 
that the participants have daily access to their investments 
and understand how they're performing. But in order for them to 
fully appreciate that, I think that it's important that they 
become educated as to the different types of investments there 
are and how the different types of investments work, and I 
think there are a variety of things that can be done.
    For example, I agree with you and I think that it's 
important to have a redesigned website, one that gives a lot 
more information. For example, there you could possibly have 
links to the different managers of the various accounts. There 
are a lot of different financial tools that are available and 
educational tools that are available through the Internet that 
could be linked to that. Also the Board could work or should 
work with the staff and the executive director and everybody at 
the Thrift Board to make sure that these educational materials 
are updated and distributed also in hard copy for people that 
are not familiar with the Internet or don't have access to the 
Internet.
    And if those steps were taken I think it would go a long 
way to helping the investors really appreciate and understand 
where their investments sit, so that they can understand and 
plan their future, because it is such an important part of 
their planning for retirement.
    Senator Akaka. Thank you.
    Mr. Sanchez, as you know, members of the Federal Retirement 
Thrift Investment Board are to act as fiduciaries, protecting 
the retirement accounts of Federal employees and looking out 
for their best interest. This is a critical responsibility in 
light of the current dispute between the Board, the executive 
director, and Department of Labor. It has been brought to our 
attention that you have been named a defendant in a lawsuit by 
the shareholders of Insurance Management Solutions Group, 
Incorporated. The lawsuit alleges that you, as the director of 
the company, breached your fiduciary duty to the shareholders. 
Because of the position for which you have been nominated 
involves substantial fiduciary responsibilities, the Committee 
must follow up on these serious allegations.
    According to the complaint in the IMSG litigation you 
served on a special committee of the board of directors. The 
board was supposed to consider the, and I quote, ``going 
private,'' transaction by which the outstanding publicly-held 
stock of IMSG would be purchased by the Bankers Insurance 
Group. It is this transaction that the plaintiffs allege has 
harmed them, and in connection in which they allege you 
breached your fiduciary duties to the shareholders.
    What was your involvement in the decision of the company to 
go private and be acquired by the Bankers Insurance Group?
    Mr. Sanchez. Mr. Chairman, I resigned from the board of 
that company in early May of this year because I just didn't 
have enough time to serve and give it the proper attention that 
it required. The basis of the lawsuit is, as you stated, sir, 
that this investor is unhappy with the price or the transaction 
itself. But the company has not been privatized as of today, 
that I know of. I don't stay in contact on a daily basis, but 
as of last week they have not privatized yet.
    So the suit alleges unhappiness with the price that the 
company is seeking to go private with, but that decision by the 
current board members hasn't even been made yet, and certainly 
was not made as of when I resigned in May 2002.
    So my counsel is seeking to have me dismissed. Right now 
the two complaints are being amended into one, and my counsel 
will seek to have me dismissed because I was not part of the 
decision in May, and certainly a decision hasn't even been made 
yet as to what price it would be.
    Senator Akaka. Did you, in connection with your work on 
that transaction, breach your fiduciary duties as a director of 
IMSG?
    Mr. Sanchez. No, sir. We hired one of the companies that 
does a--the due diligence to see what the fair price was for 
selling the company, and obviously we would not--at least up to 
the time that I served on the board, sir, would not have 
entertained any offers to sell it either to another company or 
privatize it that did not meet the fair range of the price set 
by this investment company that would set forth the reasonable 
price in accordance with what the market demanded for selling 
that company. So as of the time I was on the board that was a 
direction the special committee was going in. What has happened 
since that time, I obviously do not have knowledge of, but my 
answer is, no, sir, I did not breach any fiduciary obligations 
I had to the shareholders or to my fellow directors.
    Senator Akaka. The complaint in that case also alleges that 
you ignored your duties as a member of the company's audit and 
compensation committees. Can you make any comment on this?
    Mr. Sanchez. Sir, I spent a lot of hours and a lot of time 
fulfilling my obligations there because--it was something 
seriously that I took, and the reason I resigned was I felt it 
was just too much of an investment of time and I had to leave 
at that point in time in May of this year. So, no, I fulfilled 
my obligations, sir. I served up to the day I resigned on that 
board, attended every meeting and never was absent, as the 
records will reflect.
    Senator Akaka. Well, I thank you for your responses. We 
wanted this for the record.
    Mr. Sanchez. Thank you, Mr. Chairman.
    Senator Akaka. Do you have any further comments on this 
case or the allegations against you?
    Mr. Sanchez. No, Mr. Chairman. I have found out--this is 
the first board I've ever served on in the private sector of 
course--I've been on many nonprofit boards, and it was an 
interesting experience to--once you put your name out there, 
how you're an easy target. But I can tell you that the 
obligations, once you're appointed, whether it's a private or 
public board, is something that I take very seriously.
    Senator Akaka. I thank you very much for your responses, 
Mr. Sanchez, and also responses from the other members seated 
here. Mr. Sanchez, Mr. Saul and Mr. Whiting, I want to thank 
you for your cooperation with this process and for being with 
us today. The Committee has done its work, and I have no 
further questions for you unless there are any other comments 
that any of you wish to make at this point in time.
    If not, I want to again thank you and tell you that you may 
be excused.
    If there is no further business to come before the 
Committee, this hearing is adjourned.
    [Whereupon, at 10:31 a.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    Today we are considering the nominations of three individuals to be 
members of the Federal Retirement Thrift Investment Board. This board 
has the important responsibility of overseeing and managing the Thrift 
Savings Plan for Federal employees.
    The Thrift Savings Plan is an integral part of retirement planning 
for many government workers.
    By establishing personal investment accounts, the Thrift Savings 
Plan gives Federal employees more control over a portion of their 
retirement savings and more flexibility with their money.
    According to the Congressional Research Service, almost 87 percent 
of eligible Federal workers covered under ``FERS'' and 66 percent of 
workers covered under ``CSRS'' participated in the Thrift Savings Plan 
in 2001.
    CRS also reports that in March of this year, government employees 
had invested over $106 billion in the Thrift Savings Plan.
    I hope every government employee fully understands how important 
the Thrift Savings Plan will be to their future retirement, and makes 
the appropriate decisions about participating.
    I look forward to hearing from our witnesses about ways the Thrift 
Savings Plan can better serve government employees and meet the 
retirement goals of all workers.
    Thank you.
                               __________
                  PREPARED STATEMENT OF SENATOR GRAHAM
    It is a pleasure to be here before the Governmental Affairs 
Committee to introduce a fellow Floridian and longtime friend, 
Alejandro (Alex) Sanchez. He will be an outstanding member of the 
Federal Retirement Thrift Investment Board.
    Alex is the Chief Executive Officer of the Florida Bankers 
Association, headquartered in Tallahassee, Florida.
    He is the Florida banking community's advocate involving all 
legislative and regulatory issues in the state capitol and Washington, 
D.C.
    I know of his extraordinary abilities to create a personal link 
between individuals in our state and decision-makers in Tallahassee and 
Washington.
    His efforts, bringing groups to Washington, and keeping in touch 
via e-mail and other avenues, has ensured that there is always open 
communication and a lively exchange of ideas from those who are 
affected by banking legislation and regulation every day.
    Alex has a background in law, receiving his J.D. from the 
University of Iowa in 1983, and then working with a Miami-based law 
firm, Sinclair Lewis, being General Counsel for the Florida Department 
of Commerce, and serving as Senior Corporate Attorney for GTE 
Information Services.
    He served in the United States Air Force for almost 5 years, 
receiving an honorable discharge in 1981.
    This experience, combined with his professional expertise, is put 
to good use when Alex serves as a motivational speaker for at=risk 
school children in his community.
    He has also been active in the Mayor's Summer Jobs Program in 
Tampa, and he is a member of the board for the Florida Center for 
Children and Youth.
    I am pleased to see that his family is able to join him here today. 
He has been married 20 years to Mercedes Hervas, and they have two 
beautiful children: Cristina and Carolina.
[GRAPHIC] [TIFF OMITTED] 83484.001

[GRAPHIC] [TIFF OMITTED] 83484.002

[GRAPHIC] [TIFF OMITTED] 83484.003

[GRAPHIC] [TIFF OMITTED] 83484.004

[GRAPHIC] [TIFF OMITTED] 83484.005

[GRAPHIC] [TIFF OMITTED] 83484.006

[GRAPHIC] [TIFF OMITTED] 83484.007

[GRAPHIC] [TIFF OMITTED] 83484.008

[GRAPHIC] [TIFF OMITTED] 83484.009

[GRAPHIC] [TIFF OMITTED] 83484.010

[GRAPHIC] [TIFF OMITTED] 83484.011

[GRAPHIC] [TIFF OMITTED] 83484.012

[GRAPHIC] [TIFF OMITTED] 83484.013

[GRAPHIC] [TIFF OMITTED] 83484.014

[GRAPHIC] [TIFF OMITTED] 83484.015

[GRAPHIC] [TIFF OMITTED] 83484.016

[GRAPHIC] [TIFF OMITTED] 83484.017

[GRAPHIC] [TIFF OMITTED] 83484.018

[GRAPHIC] [TIFF OMITTED] 83484.019

[GRAPHIC] [TIFF OMITTED] 83484.020

[GRAPHIC] [TIFF OMITTED] 83484.021

[GRAPHIC] [TIFF OMITTED] 83484.022

[GRAPHIC] [TIFF OMITTED] 83484.023

[GRAPHIC] [TIFF OMITTED] 83484.024

[GRAPHIC] [TIFF OMITTED] 83484.025

[GRAPHIC] [TIFF OMITTED] 83484.026

[GRAPHIC] [TIFF OMITTED] 83484.027

[GRAPHIC] [TIFF OMITTED] 83484.028

[GRAPHIC] [TIFF OMITTED] 83484.029

[GRAPHIC] [TIFF OMITTED] 83484.030

[GRAPHIC] [TIFF OMITTED] 83484.031

[GRAPHIC] [TIFF OMITTED] 83484.032

[GRAPHIC] [TIFF OMITTED] 83484.033

[GRAPHIC] [TIFF OMITTED] 83484.034

[GRAPHIC] [TIFF OMITTED] 83484.035

[GRAPHIC] [TIFF OMITTED] 83484.036

[GRAPHIC] [TIFF OMITTED] 83484.037

[GRAPHIC] [TIFF OMITTED] 83484.038

[GRAPHIC] [TIFF OMITTED] 83484.039

[GRAPHIC] [TIFF OMITTED] 83484.040

[GRAPHIC] [TIFF OMITTED] 83484.041

[GRAPHIC] [TIFF OMITTED] 83484.042

[GRAPHIC] [TIFF OMITTED] 83484.043

[GRAPHIC] [TIFF OMITTED] 83484.044

[GRAPHIC] [TIFF OMITTED] 83484.045

[GRAPHIC] [TIFF OMITTED] 83484.046

[GRAPHIC] [TIFF OMITTED] 83484.047

                                   - 

</pre></body></html>
